      DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Office of Inspector General

                                                                                Washington, D.C. 20201



October 20, 2011

TO:            Peter Budetti
               Deputy Administrator and Director
               Center for Program Integrity
               Centers for Medicare & Medicaid Services

               Deborah Taylor
               Director and Chief Financial Officer
               Office of Financial Management
               Centers for Medicare & Medicaid Services


FROM:          /Brian P. Ritchie/
               Assistant Inspector General for the
                Centers for Medicare & Medicaid Audits


SUBJECT:       Medicare Compliance Review of St. John’s Hospital for Calendar Years 2008 and
               2009 (A-07-11-01098)


Attached, for your information, is an advance copy of our final report for one of our hospital
compliance reviews. We will issue this report to St. John’s Hospital within 5 business days.

This report is part of a series of the Office of Inspector General’s hospital compliance initiative
designed to concurrently review multiple issues at individual hospitals. This review of Medicare
payments to hospitals examines selected claims for inpatient and outpatient services. The
attached report is the sixth report issued in this initiative.

If you have any questions or comments about this report, please do not hesitate to call me at
(410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or your staff may contact Patrick
J. Cogley, Regional Inspector General for Audit Services, Region VII, at (816) 426-3591 or
through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-11-01098.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106

October 25, 2011

Report Number: A-07-11-01098

Mr. Jay Guffey
Chief Operating Officer
St. John’s Regional Health Center
1235 East Cherokee Street
Springfield, MO 65804

Dear Mr. Guffey:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of St. John’s Hospital for
Calendar Years 2008 and 2009. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Chris Bresette, Audit Manager, at (816) 426-3591 or through email at
Chris.Bresette@oig.hhs.gov. Please refer to report number A-07-11-01098 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Jay Guffey


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




     MEDICARE COMPLIANCE
           REVIEW OF
      ST. JOHN’S HOSPITAL
     FOR CALENDAR YEARS
          2008 AND 2009




                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-07-11-01098
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for inpatient costs associated
with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP [State Children’s Health Insurance Program] Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. The OPPS was effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the ambulatory payment classification group to which the
service is assigned.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. For purposes of this report, we refer to these areas at risk for incorrect
billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

St. John’s Hospital (the Hospital) is an 866-bed acute care hospital with locations in Springfield
and Joplin, Missouri. The Hospital was paid approximately $308 million for 31,066 inpatient
and 216,433 outpatient claims for services provided to Medicare beneficiaries during calendar
years (CY) 2008 and 2009 based on CMS’s National Claims History data.

Our audit covered $4,374,647 in Medicare payments to the Hospital for 164 inpatient and 60
outpatient claims that we identified as potentially at risk for billing errors for CYs 2008 and 2009
(6 of these 224 claims involved replacement medical devices and had dates of service in
CY 2010).




                                                 i
OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 166 of the 224 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for
selected inpatient and outpatient claims. Specifically, of the 224 sampled claims, 58 claims had
errors, resulting in net overpayments totaling $420,410 for CYs 2008 through 2010. These
errors occurred primarily because the Hospital did not have adequate controls to prevent
incorrect billing of Medicare claims and did not fully understand Medicare billing requirements.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $420,410, consisting of $227,239 in overpayments for
       the 36 incorrectly billed inpatient claims and $193,171 in overpayments for the 22
       incorrectly billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS

In written comments on our draft report, the Hospital concurred with our findings. However, the
Hospital indicated that overall net recovery would be lower after it worked with the Medicare
contractor to re-bill eligible claims. The Hospital also described corrective actions that it
planned to implement.

The Hospital’s comments, in separate letters from the Springfield and Joplin facilities, are
included in their entirety as Appendixes A and B, respectively.

OFFICE OF INSPECTOR GENERAL RESPONSE

We agree that the Hospital could re-bill some of the claims and that the additional Medicare
payments would offset the corresponding dollar effect of our findings. However, we are unable
to determine the offset amount until the Medicare contractor has adjudicated the additional
claims.




                                                 ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ..........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         St. John’s Hospital .........................................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................4

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................6
          Inpatient Short Stays ......................................................................................................6
          Inpatient Same-Day Discharges and Readmissions .......................................................7
          Inpatient Claims Billed With High Severity Level Diagnosis Related Groups .............7
          Inpatient Claims Paid in Excess of Charges ..................................................................7
          Inpatient Manufacturer Credits for Medical Devices ....................................................8
          Inpatient Claims With Payments Greater Than $150,000 .............................................9
          Inpatient Claims With Blood Clotting Factor Drugs .....................................................9

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................9
          Outpatient Manufacturer Credits for Medical Devices ..................................................9
          Outpatient Claims Paid in Excess of Charges..............................................................11
          Outpatient Claims With Payments Greater Than $25,000...........................................11

      RECOMMENDATIONS ....................................................................................................11

      AUDITEE COMMENTS.....................................................................................................11

      OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................12

APPENDIXES

      A: AUDITEE COMMENTS (SPRINGFIELD, MISSOURI, FACILITY)

      B: AUDITEE COMMENTS (JOPLIN, MISSOURI, FACILITY)




                                                                     iii
                                               INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients who have been discharged from the
hospital. Medicare Part B provides supplementary medical insurance for medical and other
health services, including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for inpatient costs associated
with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP [State Children’s Health Insurance Program] Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS was effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the ambulatory payment classification (APC) group to
which the service is assigned. CMS uses Healthcare Common Procedure Coding System
(HCPCS) codes and descriptors to identify and group the services within each APC group. 3 All
services and items within an APC group are comparable clinically and require comparable
resources.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or
Medicare administrative contractor, whichever is applicable.
2
    In 2009, SCHIP was formally redesignated as the Children’s Health Insurance Program.
3
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                          1
Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments to hospitals reviewed by this and related audits
included payments for claims billed for:

    •   inpatient zero- and 1-day stays (short stays),

    •   inpatient same-day discharges and readmissions,

    •   inpatient claims billed with high severity level DRGs,

    •   inpatient claims paid in excess of charges,

    •   inpatient manufacturer credits for medical devices,

    •   inpatient claims with payments greater than $150,000,

    •   inpatient claims with blood clotting factor drugs,

    •   outpatient manufacturer credits for medical devices,

    •   outpatient claims paid in excess of charges, and

    •   outpatient claims with payments greater than $25,000.

For purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. In addition, pursuant to section
1862(a)(1)(A) of the Act, no Medicare payment may be made for items or services that are not
reasonable and necessary for diagnosing or treating illness or injury or for improving the
functioning of a malformed body member.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the
intermediary (Medicare contractor) sufficient information to determine whether payment is due
and the amount of payment.




                                                   2
The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires that claims be completed accurately to be processed correctly and promptly.
Chapter 3, section 10, of the Manual states that the hospital may bill only for services provided.
In addition, chapter 23, section 20.3, of the Manual states: “Providers must use HCPCS codes …
for most outpatient services.”

St. John’s Hospital

St. John’s Hospital (the Hospital) is an 866-bed acute care hospital with locations in Springfield
and Joplin, Missouri. The Hospital was paid approximately $308 million for 31,066 inpatient and
216,433 outpatient claims for services provided to Medicare beneficiaries during calendar years
(CY) 2008 and 2009 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $4,374,647 in Medicare payments to the Hospital for 164 inpatient and 60
outpatient claims that we identified as potentially at risk for billing errors. Of these 224 claims,
218 had dates of service in CYs 2008 and 2009. Six of the 224 claims (involving replacement
medical devices) had dates of service in CY 2010.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. Our review was based on selected billing requirements and did
not include a focused medical review to determine whether the services were medically
necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital during March through June 2011.




                                                  3
Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
       Claims History file for CYs 2008 and 2009;

   •   obtained information on known credits for replacement cardiac medical devices from the
       device manufacturers for CYs 2008, 2009, and 2010;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 224 claims (164 inpatient and 60 outpatient) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   discussed the incorrectly billed and/or coded claims with Hospital personnel to determine
       the underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials on June 9, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 166 of the 224 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for
selected inpatient and outpatient claims. Specifically, of the 224 sampled claims, 58 claims had
errors, resulting in net overpayments totaling $420,410 for CYs 2008 through 2010. These


                                                4
errors occurred primarily because the Hospital did not have adequate controls to prevent
incorrect billing of Medicare claims and did not fully understand Medicare billing requirements.

Of 164 sampled inpatient claims, 36 claims had billing errors, resulting in overpayments totaling
$227,239.

    •   For inpatient claims with short stays, the Hospital incorrectly billed Medicare Part A for
        beneficiary stays that should have been billed as outpatient or as outpatient-with-
        observation services (14 errors). The Hospital also billed for inpatient stays that lacked a
        physician’s signature to admit the patients to inpatient care (two errors). (These 16 errors
        totaled $104,484 in overpayments).

    •   For inpatient claims with same-day discharge and readmissions, the Hospital billed
        Medicare separately for related discharges and readmissions within the same day (four
        errors). The hospital also billed Medicare for the second stay as an acute care claim that
        should have been billed as a rehabilitation claim (two errors). (These six errors totaled
        $39,649 in overpayments).

    •   For inpatient claims billed with high severity level DRGs, the Hospital billed Medicare
        with an incorrectly coded DRG (one error resulting in a $33,958 overpayment).

    •   For inpatient claims paid in excess of charges, the Hospital billed Medicare with
        incorrectly coded DRGs (four errors totaling $25,765 in overpayments).

    •   For inpatient claims involving manufacturer credits for medical devices, the Hospital
        incorrectly billed Medicare when available credits should have been obtained from the
        manufacturer (two errors) and for a medical device after receiving a credit from the
        manufacturer (one error) (three errors totaling $25,350 in overpayments).

    •   For inpatient claims paid in excess of $150,000, the Hospital billed Medicare for units of
        service or supplies that were not supported by the medical records (five errors totaling
        $12,176 in overpayments).

    •   For inpatient claims with blood clotting factor drugs, the Hospital billed Medicare with
        an incorrect revenue code, which resulted in the Hospital receiving an outlier payment
        instead of an add-on payment (one error resulting in a $14,143 underpayment because the
        add-on payment had a higher reimbursement than the outlier payment). 4

Of 60 sampled outpatient claims, 22 claims had billing or coding errors, resulting in
overpayments totaling $193,171.




4
  Under IPPS, Medicare makes outlier payments to hospitals when exceptionally costly cases exceed established
thresholds. Pursuant to the Manual, hospitals receive add-on payments for the costs of furnishing blood clotting
factor drugs to certain Medicare beneficiaries.


                                                         5
    •   For outpatient claims involving manufacturer credits for medical devices, the Hospital
        received full credit for a replaced device but did not report either the correct modifier or
        the reduced charges on its claim (12 errors). The Hospital also did not obtain credits for
        replaced devices that were available under the terms of the manufacturers’ warranties
        (5 errors). (These 17 errors totaled $100,327 in overpayments).

    •   For outpatient claims paid in excess of charges, the Hospital submitted claims to
        Medicare with incorrect HCPCS codes and incorrect units of service (four errors totaling
        $81,303 in overpayments).

    •   For outpatient claims paid in excess of $25,000, the Hospital submitted a claim to
        Medicare with an incorrect modifier (one error resulting in an $11,541 overpayment).

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 36 of 164 sampled inpatient claims that we
reviewed. These errors resulted in overpayments totaling $227,239.

Inpatient Short Stays

Section 1862(a)(1)(A) of the Act states that no Medicare payment may be made for items or
services that “… are not reasonable and necessary for diagnosing or treating illness or injury or
for improving the functioning of a malformed body member.” Section 1814(a)(3) of the Act
states that payment for services furnished an individual may be made only to providers of
services that are eligible and only if “… with respect to inpatient hospital services, which are
furnished over a period of time, a physician certifies that such services are required to be given
on an inpatient basis for such individual’s medical treatment ….”

For 16 out of 65 sampled claims with short stays, the Hospital incorrectly billed Medicare Part A
for inpatient short stays. For 14 claims, the Hospital incorrectly billed Medicare for beneficiary
stays that should have been billed as outpatient or as outpatient-with-observation services. For
two claims, the Hospital billed for inpatient stays that lacked a physician’s signature to admit the
patients to inpatient care. The Hospital stated that the 14 patient admission errors occurred
because the hospital staff did not have a full understanding of the patient class criteria, and/or
because coders may not have seen the physicians’ orders referring to the outpatient status in the
medical records. The Hospital attributed the missing signatures on the physician orders to admit
the beneficiaries for inpatient care to human error. As a result of these 16 errors, the Hospital
received overpayments totaling $104,484. 5




5
 The Hospital indicated that there may have been some allowable Part B costs for the associated denied Part A
services.


                                                        6
Inpatient Same-Day Discharges and Readmissions

The Manual, chapter 3, section 40.2.5, states:

       When a patient is discharged from an acute care Prospective Payment System
       (PPS) hospital, and is readmitted to the same acute care PPS hospital on the same
       day for symptoms related to, or for evaluation and management of, the prior
       stay’s medical condition, hospitals shall adjust the original claim generated by the
       original stay by combining the original and subsequent stay onto a single claim.

For six out of seven sampled claims, the Hospital incorrectly billed Medicare for same-day
discharges and readmissions. For four of the claims, the Hospital billed Medicare separately for
related discharges and readmissions within the same day. For the remaining two claims, the
Hospital billed Medicare for the second stay as an acute care claim that should have been billed
as a rehabilitation claim. The Hospital stated that the four related acute care inpatient errors
occurred due to miscommunication between the utilization management department and the
business office. The Hospital also stated that the two acute care claims that should have been
billed as rehabilitation claims occurred because the hospital staff did not have a full
understanding of how to enter patient class criteria into a newly implemented claims processing
system. As a result of these six errors, the Hospital received overpayments totaling $39,649.

Inpatient Claims Billed With High Severity Level Diagnosis Related Groups

Section 1862(a)(1)(A) of the Act states that no Medicare payment may be made for items or
services that “… are not reasonable and necessary for diagnosing or treating illness or injury or
for improving the functioning of a malformed body member.” The Manual, chapter 1, section
80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

For 1 out of 31 sampled claims billed with high severity level DRGs, the Hospital billed
Medicare with an incorrectly coded DRG. The Hospital stated that this error occurred because
the claim included an unusual coding error that was not identified during the Hospital’s quality
review process. As a result of this error, the Hospital received an overpayment of $33,958.

Inpatient Claims Paid in Excess of Charges

Section 1862(a)(1)(A) of the Act states that no Medicare payment may be made for items or
services that “… are not reasonable and necessary for diagnosing or treating illness or injury or
for improving the functioning of a malformed body member.” In addition, the Manual, chapter
3, section 10, states that the hospital may bill only for services provided, and chapter 1, section
80.3.2.2, requires that claims be completed accurately to be processed correctly and promptly.

For 4 out of 34 sampled claims, the Hospital billed Medicare with incorrectly coded DRGs. The
Hospital stated that these errors occurred because the claims included unusual coding errors that
were not identified during the Hospital’s quality review process. As a result of these errors, the
Hospital received overpayments totaling $25,765.



                                                  7
Inpatient Manufacturer Credits for Medical Devices

Federal regulations (42 CFR § 412.89) require reductions in the IPPS payments for the
replacement of an implanted device if (1) the device is replaced without cost to the provider,
(2) the provider receives full credit for the cost of a device, or (3) the provider receives a credit
equal to 50 percent or more of the cost of the device.

Prudent Buyer Principle

Pursuant to 42 CFR § 413.9, “All payments to providers of services must be based on the
reasonable cost of services ….” CMS’s Provider Reimbursement Manual, part 1, section
2102.1, states:

           Implicit in the intention that actual costs be paid to the extent they are reasonable
           is the expectation that the provider seeks to minimize its costs and that its actual
           costs do not exceed what a prudent and cost conscious buyer pays for a given item
           or service. If costs are determined to exceed the level that such buyers incur, in
           the absence of clear evidence that the higher costs were unavoidable, the excess
           costs are not reimbursable under the program.

Section 2103 of the Provider Reimbursement Manual states that Medicare providers are expected
to pursue free replacements or reduced charges under warranties. Section 2103(C)(4) provides
the following example:

           Provider B purchases cardiac pacemakers or their components for use in replacing
           malfunctioning or obsolete equipment, without asking the supplier/manufacturer
           for full or partial credits available under the terms of the warranty covering the
           replaced equipment. The credits or payments that could have been obtained must
           be reflected as a reduction of the cost of the equipment.

Billing Requirements for Medical Device Credits

The Manual, chapter 3, section 100.8, states: “To correctly bill for a replacement device that was
provided with a credit … hospitals must use the combination of condition code 49 or 50, along
with value code FD.”

For 3 out of 18 sampled claims, 6 the Hospital incorrectly billed Medicare for inpatient claims
involving credits that were available from manufacturers for replaced medical devices. For two
claims, the Hospital incorrectly billed Medicare for replaced medical devices because it did not
attempt to obtain available credits from the manufacturer. For an additional claim, the Hospital
incorrectly billed Medicare for a medical device after receiving a credit from the manufacturer.
The Hospital stated that these errors occurred because of a lack of understanding of Medicare
requirements regarding the refunding of credits for medical devices. As a result of these three
errors, the Hospital received an overpayment of $25,350.


6
    One claim in error was from the St. John’s Hospital facility located in Joplin, Missouri.


                                                             8
Inpatient Claims With Payments Greater Than $150,000

Section 1862(a)(1)(A) of the Act states that no Medicare payment may be made for items or
services that “… are not reasonable and necessary for diagnosing or treating illness or injury or
for improving the functioning of a malformed body member.” The Manual, chapter 1, section
80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.” Also, chapter 3, section 10, states: “The hospital may bill only for services
provided ….”

For five out of five sampled claims, the Hospital billed Medicare for units of service or supplies
that were not supported by the medical records. As a result, the Hospital incorrectly included
charges for these items in cost outlier computations, thus creating the overpayments. The
Hospital attributed these overpayments to human error and to the fact that its quality review
process did not include 100 percent of the charges. As a result of these five errors, the Hospital
received overpayments totaling $12,176.

Inpatient Claims With Blood Clotting Factor Drugs

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.” Additionally, chapter 3, section 20.7.3(A), states
that hospitals receive an add-on payment for the costs of furnishing blood clotting factor drugs to
certain Medicare beneficiaries and that the provider must use revenue code 636 (drugs requiring
detail coding) so that the clotting factor charges are not included in the cost outlier computations.

For one out of four sampled claims, the Hospital billed Medicare with an incorrect revenue code.
Specifically, the Hospital used revenue code 250 (pharmacy) instead of revenue code 636 (drugs
requiring detail coding), which caused the clotting factor charges to be included in the claim’s
cost outlier computation. However, the Hospital should have received an add-on payment for
providing this blood-clotting factor drug. The add-on payment had a higher reimbursement than
the outlier payment. The Hospital stated that this error occurred because its computer software
was programmed incorrectly and because of human error. As a result of this error, the Hospital
received an underpayment of $14,143.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 22 of 60 sampled outpatient claims that we
reviewed. These errors resulted in overpayments totaling $193,171.

Outpatient Manufacturer Credits for Medical Devices

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.



                                                   9
Prudent Buyer Principle

Pursuant to 42 CFR § 413.9, “All payments to providers of services must be based on the
reasonable cost of services ….” CMS’s Provider Reimbursement Manual, part 1, section
2102.1, states:

           Implicit in the intention that actual costs be paid to the extent they are reasonable
           is the expectation that the provider seeks to minimize its costs and that its actual
           costs do not exceed what a prudent and cost conscious buyer pays for a given item
           or service. If costs are determined to exceed the level that such buyers incur, in
           the absence of clear evidence that the higher costs were unavoidable, the excess
           costs are not reimbursable under the program.

Section 2103 of the Provider Reimbursement Manual states that Medicare providers are expected
to pursue free replacements or reduced charges under warranties. Section 2103(C)(4) provides
the following example:

           Provider B purchases cardiac pacemakers or their components for use in replacing
           malfunctioning or obsolete equipment, without asking the supplier/manufacturer
           for full or partial credits available under the terms of the warranty covering the
           replaced equipment. The credits or payments that could have been obtained must
           be reflected as a reduction of the cost of the equipment.

Billing Requirements for Medical Device Credits

CMS guidance in Transmittal 1103, dated November 3, 2006, and in the Manual explains how a
provider should report no-cost and reduced-cost devices under the OPPS. For services furnished
on or after January 1, 2007, CMS requires the provider to report the modifier “FB” and to file for
reduced charges on a claim that includes a procedure code for the insertion of a replacement
device in cases when the provider has incurred no cost, or has received full credit, for the
replaced device.

For 17 out of 45 sampled claims, 7 the Hospital incorrectly billed Medicare for outpatient claims
involving credits that were available from manufacturers for replaced medical devices. For 12
claims, the Hospital received full credit for a replaced device but did not report either the “FB”
modifier or the reduced charges on its claim. For five claims, the Hospital did not obtain credits
for replaced devices that were available under the terms of the manufacturers’ warranties. The
Hospital stated that these errors occurred because of a lack of understanding of Medicare
requirements regarding the refunding of credits for medical devices. As a result of these 17
errors, the Hospital received an overpayment of $100,327.




7
    Ten claims in error were from the St. John’s Hospital facility located in Joplin, Missouri.


                                                            10
Outpatient Claims Paid in Excess of Charges

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1, section
80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.” In addition, chapter 4, section 20.4, states: “The definition of service units … is the
number of times the service or procedure being reported was performed.”

For four out of five sampled claims, the Hospital submitted claims to Medicare with incorrect
HCPCS codes and incorrect units of service. The hospital stated that these errors occurred
because of human error and because of confusion regarding the Medicare requirements for
charging compounded drugs. 8 As a result of these four errors, the Hospital received
overpayments totaling $81,303. 9

Outpatient Claims With Payments Greater Than $25,000

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1, section
80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

For one out of four sampled claims, the Hospital submitted the claim to Medicare with an
incorrect modifier. The Hospital stated that this error occurred because it did not select the claim
as part of its quality review process. As a result of this error, the Hospital received an
overpayment totaling $11,541.

RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $420,410, consisting of $227,239 in overpayments for
        the 36 incorrectly billed inpatient claims and $193,171 in overpayments for the 22
        incorrectly billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS

In written comments on our draft report, the Hospital concurred with our findings. However, the
Hospital identified 23 claims that we have classified as findings for which it could submit new
claims for either Medicare Part A (rehabilitation) services or Medicare Part B services.

8
  Compounded drugs are created by combining two or more prescription or nonprescription drug products and
repackaging them into a new capsule or other dosage form.
9
 The majority of these total overpayments for outpatient claims paid in excess of charges were due to one claim
($79,448).


                                                        11
According to the hospital, the additional payments for these eligible claims would lower the
overall net recovery. The Hospital stated that it would work with the Medicare contractor to re-
bill these eligible claims.

The Hospital also described corrective actions that it planned to implement.

The Hospital’s comments, in separate letters from the Springfield and Joplin facilities, are
included in their entirety as Appendixes A and B, respectively.

OFFICE OF INSPECTOR GENERAL RESPONSE

We agree that the Hospital could re-bill some of the claims and that the additional Medicare
payments would offset the corresponding dollar effect of our findings. However, we are unable
to determine the offset amount until the Medicare contractor has adjudicated the additional
claims.




                                                12
APPENDIXES
                                                                                                                                            Page 1 of 3


APPENDIX A: AUDITEE COMMENTS (SPRINGFIELD, MISSOURI, FACILITy)




          tMeRcx_____.._._. . _ . ___ _
            ST.JOHN'S                                                                              IT. JOKN~I HIALTJUVSTEM
                                                           :':'35 EAS~ (,;HE':W,;, ct: Slrtte; •   $PRi~~GHEU),   MIS'.$O;..fa bSaOJ-no
                                                                                                                     .. t 7-&2()'2000 j ,




             August 4, 2011


             Douglas Kelly. CPA, RN
             Senior Auditor, Region VII
             HHSiOIGJOffice of Audit Services
             601 East 12th Street, Room 429
             Kansas City. MO, 64106

             Dear Mr. Kelly:

             SI. John's Regiooal Health Center, Springfield and 51. John's Regional Medical Center,
             Joplin is in receipt of the draft report provided by the Department of Health & Human
             Servi::es, Office of Inspector General (OIG) entitled, "S!. John's Medicare Compliance:

             The OIG originally selected for review certain inpatient and outpatient claims submitted
             by 51. John's Springfield and 51. JQhn's Joplin for dates of service from J.anuary 1, 2008
             through December 3t, 2009, covering nine aOOn areas. The types of payments to
             hospitals reviewed by this and related audits included payments lor claims billed lor:
                     • inpatient zero- and l·day stays (short stays).
                     • inpatiehtsame·day discharges and readmissions,
                     • inpabent claims billed with high severity level diagnosis related groups,
                     • inpatient claims paid in excess ofcharges,
                     • inpatient manuiacturer credits for medical devices,
                     • inpatient claims with payments greater than $150,000,
                     • inpatient claims with blood Clotting factor drugs, 

                     • outpatient manufa.cturer credits for medical devices. 

                     • outpatient claims paid In excess of charges, and 

                     • outpatient claims with payments greater tI1an $25,000. 


              It 1$ our understanding that the selection 01 the records was not by a random sampling
              methodology, but was based on "focused audit enteria" covering areas identified on OIG
              reviews at other hospitals aJ1d is a new approach for OIG audits. It rsal$o our
              understanding that the results will not be extrapolated to the totai claim population for
              2008 and 2009.

              I am writing to you on behalf of St John's Regional Health Center, located in Springfield,
              MiSSouri ("St. John's Springfield"). SI. John's Springfield is a subsidiary of SI. John's
              Health System, Inc., also based in Springfield, and is part of the Sisters 01 Mercy Health
              System,51. Louis, Missouri (·MercY'). SI. John's Regional Medical Center is located in
              Joplin, MiSsOuri ("St. John's Joplin") and until November " 2009. was part of Catl10lic
              Health InitiatfVes ("CHI,,) based in Denver, ColOrado. SI. John's Joplin became a part of
              Mercy after November 1, 2009, Therefort!, the 51. John'S Joplin response walliot be
              included with my response and will be provided separately, •          ,



              Page I of 3
                                                                                                       Page 2 of 3




Our responses to the OIO's recommendatiOns are set forth below:

   1. 	   SI. John's Springfle!d concurs wrththe 010 findings where 181 claim reviews
          resulted in 47 claims with errors that caused overpayments totaling $329,576.10
          for CYs 2Q08 through 2009 which includes 5121.287 for Outpatient claims and
          $208,239 for Inpatient claims,

   2. 	 St. John's Springfield will work with our MediCare contractor to appropriately
        reconcile lhese accounts. We will re-bill eligible claims to Medicare Part 8 and/or
          Part A Rehabilitation alter the original claims identifled in the audit are adjusted
          as directed by the MediCare contractor. We will also request eligible credits from
          device manufacturers. This will conSist of 23 claims and approximate
          reimbursement back to S1. John's Springfield In Ihe amount of $122.609.82. This
          will result In an over-all estimated net recovery to Medicare from SI. John's
          Springfield of 5234.856.28.

   3. 	 Sf. John's Springfield continues to further strengthen our Compliance Programs
        and internal controls to be compiiant with Medicare Billing requiremeflts:

              a. 	 SI. John's Springfield continues to provide coding education and audits
                   for our COdetsas weU as continuing compliance education for co-workers.
                         i. 	 Mini Compliance AcadelTl~ (4 days) covering the Seven Elements
                              of Compliance.
                        Ii. AHIMA webcast FY11 eMS IPPS Update
                       iii. 	 AHIMA webcast FY11 {CD9 Update
                       iv. 	 AAPC 2011 OPPS Rule Update
                        v. 	 Annual Educatron Update - we implemented MyEducation which
                              is a new tool that will track required educatron as well as individual
                              education recordS. This will be used for annual Pnvacyand
                              Compliance Education.
                       VI. 	 Presentation 10 SI. John's Management Forum - Department
                              Managers' Rote in Compliance

              b. 	 In January 2009, Sl John's Springfield implemented its new electronic
                   health record and biUing system. Some 01 the errors identified on the 0113
                   audit were software issues that we had already resolved or were in the
                   process 01 being resolved prior 10 the 0113 audit. SI. John's has
                   implemented additional internal controls to identify and moMor these
                   types 01 errors, i.e., Improved edit criteria and more detailed reports.

              c. 	 St, John's Springfield continues to refine internal processes and controls
                   surrounding the case management process that impacts the appropnate
                   patient classifiCation to inpatient or outpatient
                         i. 	 A monitoring report was developed to check Ihe accuracy of
                              patient class ofpatietlt$ transferred between nursing units.
                        Ii. 	 Software adjustment was made to the electronic ordering process
                              for patient class changes.

              d. 	 St John's Springfield is working closefy with vendors and Involved
                   hospital departments to improve the process for appropriate bdllrlg and
                   refunds of device warranty credits


Page 2 of 3
                                                                                                                                    Page 3 of 3




                            j. 	 Assigned an analyst to coordinate. the devi.ce warranty/re·bill
                                 process between departments.
                           iI. Implementeo a device data collection form to obtam complete
                                 information from the vendors.
                          lit. 	 Implemented a work queue in our DUling system for follow·up and
                                 reconciliation with department procedure logs to track device
                                 retumsand refunds.

Thank you lor !he opportunity to respond to the audit findings. SI John's Spnngfield
appreciates the professionalism demon.strated by the OIG Audit Staff throughout this
audit We will proceed with the claims adjustments described above to resoll/e this
matter.

Please contact me il you have any questions or we need to do anything in addition to the
action items oescribed above :0 close thiS matter

Sincerely,

~Lt~
Faye Griffin. RHIA CHC
Corpcrate Compliance Officer
S1. John's Regional Health Center
Springfield. Missoufl 65804
laye.griffin@mercy.net

 j Sf- john',. Joplin c1atm,., rt\'ic"v..' "tm... i~tcd nt -43 weH I..'!aims which   NhU!tt"d in ! i ~Iaim ..   with ermr~ Ih~t 

..::aust."d "vet'pil)mcm:s of ,)90.8X-lAS 





Page 3 of 3
                                                                                                                        Page 1 of 2



APPENDIX B: AUDITEE COMMENTS (JOPLIN, MISSOURI, FACILITY)




 tMeRCY
      =-----------------------------------------------­
   ST.JOHN'S 	                                                      2727 McCLELLAND BOULEVARD • JOPLIN, MISSOURI 648Q4.1694
   REGIONAL MEDICAL CENTER 	                                                                               417-781·2727 ph.




     August 4, 2011



     Douglas Kelly, CPA, RN
     Senior Auditor, Region VII
     HHS/OIG/Office of Audit Services
     601 East 12th Street, Room 429
     Kansas City, MO, 6410,6

     Dear Mr. Kelly:

     S1. John's Regional Medical Center, Joplin, and St. John's Regional Health Center,
     Springfield, have received the draft report provided by the Department of Health &
     Human Services, Office ofInspector General (O/G), entitled, "Medicare Compliance
     Review of Saint John's Hospital for Calendar Years 2008 and 2009" dated July 2011
     (Report Number: A-07-11-01098).

     The majority of the claims reviewed were those of SI. John's Regional Health Center,
     located in Springfield, Missouri ("St. John's Springfield"). St. John's Springfield is a
     subsidiary of St. John's Health System, Inc., also based in Springfield, and is part of the
     Sisters of Mercy Health System, St. Louis, Missouri ("Mercy").

     I am writing to you on behalf of St. John's Regional Medical Center located in Joplin,
     Missouri ("SI. John's Joplin"), which until November 1, 2009, was part of Catholic Health
     Initiatives ("CHI") based in. Denver, Colorado. St. John's Joplin became a part of Mercy
     after November 1, 2009. Therefore, the SI. John's Springfield response will not be
     included with my response and will be provided separately.

     While the OIG's report focuses on several audit areas that were largely related to the St.
     John's Springfield location, this response is limited to the reviews conducted on claims
     for the St. John's Joplin location only . .specifically, the types of payments reviewed by
     this audit for Joplin included payments for claims billed for:
             • inpatient manufacturer credits for medical devices, 

             • outpatient manufacturer credits for medical devices. 


     It is our understanding that the selection of the records was not by a random sampling
     methodology, but was based on "focused audit criteria" covering areas identified on OIG
     reviews at other hospitals and is a new approach for OIG audits. It is also our
     understanding that the results will not be extrapolated to the total claim population for
     2008 and 2009.

     Our responses to the OIG's recommendations are set forth below:

          1. 	 St. John's Joplin concurs with the OIG findings that of the 40 claims reviewed,
                  11 had errors that caused overpayments totaling $90,884.48 for CYs 2008 and
                  2009.


     rage I of2
                           -----------_._     ........- ......   __ __
                                                                   ..    .   --_._----- - - - - - __. ­            .
                                                                                                    Page 2 of 2




      2. 	 st. John's Joplin will work with our Medicare contractor to appropriately reconcile
           these accounts in accordance with the audit findings.

     3. 	 8t. John's Joplin continues to work on process improvements to further
          strengthen our Compliance Program and internal controls to be compliant with
          Medicare Billing requirements:

              a. 	 St. John's Joplin continues to provide coding education and audits for our
                   coders as well as continuing compliance education for co-workers:
                          i. 	 Mini Compliance Academy (4 days) covering the Seven Elements
                               of Compliance;
                        ii. 	 AHIMA webcast FY11 CMS lPPS Update;
                       iii. 	 AHIMA webcast FY11 IC09 Update;
                       iv. 	 AAPC 2011 OPPS Rule Update;
                        v. 	 Annual Education Update - we recently implemented
                               MyEducation which is a new tool that will track required education
                               as well as individual education records.

              b. 	 St. John's Joplin implemented its new electronic health record and billing
                   system at the beginning of May 2011, just prior to the tornado that struck
                   Joplin, and we are committed to enhancing our internal controls for
                   tracking and reports regarding device refunds and credits.

             c. 	 St. John's Joplin is working closely with vendors and inVOlved hospital
                  departments to improve the process for appropriate billing and refunds of
                  device warranty credits by:
                         i. 	 Assigning an analyst to coordinate the deVice warranty/re-bill
                              process between departments.
                       ii. 	 Implementing a device data collection form to obtain complete
                              information from the vendors.
                      iii. 	 Implementing a work queue in our billing system for follow-up and
                              reconciliation with department procedure logs to track device
                              returns and refunds.

Thank you for the opportunity to respond to your findings. SI. John's Joplin appreciates
the professionalism demonstrated by the OIG Audit Staff throughout this audit. We will
proceed with the claims adjustments described above to resolve this matter.

Please contact me if you have any questions, or if we need to do anything in addition to
the action items described above to close this matter.

Sincerely,



Michael Wardlow, RN, BSN, BSEd.
Compliance Manager
St. John's Regional Medical Center
Joplin, Missouri 64804
michael. wardI6w@mercy.net


Page2of2
